                                                     IG-02-010




AUDIT
                               TELEPHONE MANAGEMENT
REPORT
                                    March 26, 2002




                           OFFICE OF INSPECTOR GENERAL


National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.


Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

      Assistant Inspector General for Audits
      Code W
      NASA Headquarters
      Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station,
Washington, DC 20026. The identity of each writer and caller can be kept confidential,
upon request, to the extent permitted by law.


Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

CFR            Code of Federal Regulations
GSA            General Services Administration
NMI            NASA Management Instruction
NPD            NASA Policy Directive
OSF            Office of Space Flight
                                             March 26, 2002
W


TO:               A/Administrator

FROM:             W/Counsel to the Inspector General

SUBJECT:          INFORMATION: Telephone Management
                  Report Number IG-02-010

The NASA Office of Inspector General has completed an audit of telecommunications
management. We found that controls for acquiring and managing telecommunications
services1 were generally adequate. However, NASA had not established effective
Agencywide controls for managing telephone use. The Agency had no guidance to
collect administrative costs associated with unauthorized calls and to sufficiently block
the ability to use inappropriate2 toll-free telephone numbers. Also, NASA did not
consistently follow its policy for reviewing and certifying telephone charges.
Consequently, NASA was not assured that telephone services were effectively and
efficiently managed.

Background

Federal employees are permitted limited use of Government office equipment for
personal needs if use does not interfere with official business and involves minimal
additional expense to the Government. NASA’s policy allows the use of
Government-provided telephones for official business, emergency, or authorized personal
use. The NASA policy provides specific definitions for emergency and authorized
personal calls.3 Any telephone calls that are not for official business, emergency, or
authorized personal reasons are unauthorized calls. Individuals making unauthorized
calls are required to reimburse the Agency. In addition, Center Directors and the Director



1
  Telecommunications services include telephones, facsimiles, local video, administrative radio, remote
telecommunications, and public address service.
2
  Center officials generally described inappropriate toll-free telephone numbers as those that allow access
to sexually explicit or sexually oriented material, radio and television talk shows, and psychics.
3
  NASA Policy Directive (NPD) 2540.1D, Use of Government Telephones, defines an emergency call as
one to services such as an ambulance, local government, or military groups with jurisdiction for the safety
of life. The NPD defines an authorized personal call as one that does not adversely affect an employee’s
performance of official duties or the functions of the employee’s organization; is of reasonable duration
and frequency; and is local, made to a toll-free number, or charged to a personal telephone calling card, to
the employee’s home telephone, or to the non-Government party called.
                                                                                               2

for Headquarters Operations should develop procedures for supervisors to review and
certify that toll calls are for official business, for emergency, or for authorized personal
reasons; and to collect money for unauthorized calls.

Recommendations

We recommended that NASA evaluate alternative procedures for reviewing and
collecting for unauthorized telephone use and implement the most cost-effective
procedures; modify existing guidance to provide for recovery of administrative costs
associated with unauthorized calls and require review of cellular telephone charges; and
establish a policy for blocking use of inappropriate toll-free numbers. We also
recommended that NASA direct the Jet Propulsion Laboratory to modify its telephone
policy to comply with the Agency’s certification and collection requirements. Actions to
implement these recommendations will provide NASA more assurance that telephone
services are sufficiently managed.

Management’s Response and OIG Evaluation

NASA concurred with the recommendations to evaluate and implement procedures for
reviewing and collecting for unauthorized calls; to modify Agency guidance to include
provisions for recovery of administrative costs associated with unauthorized calls, to
require review of cellular telephone charges, and to establish procedures for blocking
inappropriate toll-free numbers. Although NASA partially concurred with the
recommendation to require the Jet Propulsion Laboratory to modify its telephone policy
to comply with NASA policy, management’s planned actions will meet the intent of the
recommendation.



[original signed by]
Francis P. LaRocca

Enclosure
Final Report on Audit of Telephone Management
TELEPHONE MANAGEMENT
                                     March 26, 2002
W


TO:            M/Associate Administrator for Space Flight
               S/Associate Administrator for Space Science

FROM:          W/Assistant Inspector General for Audits

SUBJECT:       Final Report on Audit of Telephone Management
               Assignment Number A-00-060-00
               Report Number IG-02-010

Enclosed please find the subject final report. Please refer to the Executive Summary for
the overall audit results. Our evaluation of your response is incorporated into the body of
the report. We consider management's proposed, corrective actions responsive to the
recommendations. The recommendations will remain open for reporting purposes until
corrective actions are completed. Please notify us when actions have been completed on
the recommendations, including the extent of testing performed to ensure corrective
actions are effective. The final report distribution is in Appendix G.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Mr. David L. Gandrud, Director, Information
Technology Program Audits, at (650) 604-2672, or Mr. Roger W. Flann, Program
Manager, at (818) 354-9755.



[original signed by]
Alan J. Lamoreaux

Enclosure
                                                              2

cc:
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
NASA Center Directors
Director, NASA Management Office, Jet Propulsion Laboratory
Contents

Executive Summary, i

Introduction, 1

Finding and Recommendations, 2

      Management Controls Over Telephone Use, 2

Appendix A – Objective, Scope, and Methodology, 7

Appendix B – General Services Administration Response to Inquiry on
             Telephone Use, 9

Appendix C - Reviews/Certifications of Telephone Charges and Collections
            for Unauthorized Calls, 12

Appendix D - Inappropriate Toll-Free Numbers Blocked, 13

Appendix E - Inappropriate Toll-free Numbers Not Blocked, 14

Appendix F – Management’s Response, 15

Appendix G – Report Distribution, 18
                          NASA Office of Inspector General

IG-02-010                                                                          March 26, 2002
 A-00-060-00

                                  Telephone Management

                                    Executive Summary

Background. The General Services Administration (GSA) provides overall policy for
telecommunications services.4 Agencies may issue their own policies and procedures for
implementing GSA policy. NASA’s telecommunications management policies are found
in various policy directives, guidance, and procedures. For fiscal year 2001, NASA
locations5 estimated they would spend about $191 million for telecommunications
services.

Objective. The overall audit objective was to determine whether NASA had established
effective controls for acquiring and managing its telecommunications services.
Specifically, we determined whether management controls were sufficient to ensure that
NASA procured only required services and support. Appendix A contains further details
on the audit objective, scope, and methodology.

Results of Audit. Except for telephone services, NASA had generally established
adequate controls for acquiring and managing telecommunications services. However,
NASA had not established effective Agencywide controls for managing telephone use.
Specifically, NASA had not:

    •   established guidance for collecting administrative costs associated with
        unauthorized calls,

    •   consistently followed policy for reviewing and certifying telephone charges, and

    •   sufficiently blocked the ability to use inappropriate toll-free telephone numbers.

As a result, NASA lacked assurance that it was effectively and efficiently managing its
telephone services.




4
 See footnote 1.
5
 NASA locations are the Ames Research Center (Ames), Hugh L. Dryden Flight Research Center
(Dryden), John H. Glenn Research Center (Glenn), Goddard Space Flight Center (Goddard), Jet Propulsion
Laboratory (JPL), Lyndon B. Johnson Space Center (Johnson), John F. Kennedy Space Center (Kennedy),
Langley Research Center (Langley), George C. Marshall Space Flight Center (Marshall), NASA
Headquarters (Headquarters), and John C. Stennis Space Center (Stennis).
Recommendations. NASA should evaluate alternative procedures for reviewing and
collecting for unauthorized telephone use and implement the most cost-effective
procedures. Also, NASA should modify existing guidance to provide for recovery of
administrative costs associated with unauthorized calls and require review of cellular
telephone charges. Further, NASA should establish a policy for blocking use of
inappropriate toll-free numbers. Finally, NASA should direct JPL to modify its
telephone policy to comply with the Agency’s certification and collection requirements.

Management’s Response. NASA concurred with all but one recommendation.
Management partially concurred with the recommendation to direct JPL to modify its
telephone policy to comply with NPD 2540.1D; however, the proposed actions meet the
intent of the recommendation.

Evaluation of Response. Management’s planned actions are responsive to all the
recommendations.




                                           ii
Introduction

In October 1996, the NASA Administrator transferred management responsibility for
Agency telephone use from the Office of Space Communications to the Office of Space
Flight (OSF). The OSF, Space Communications Office, has primary responsibility for
telecommunications, including establishing policy on telephone use. At the time of the
transfer, NASA Management Instruction (NMI) 2540.1C, “Use of Government
Telephones,” provided Agency policy on telephone usage. On November 27, 1998,
NASA replaced NMI 2540.1C with NASA Policy Directive (NPD) 2540.1D, same title.
Information systems organizations at most NASA locations are responsible for
implementing the telephone usage requirements in NPD 2540.1D.

NPD 2540.1D requires that NASA locations establish local policies and procedures for
telephone management. The NPD also requires local procedures for supervisory
certification that long-distance calls are for authorized personal calls or for official
business or emergency purposes. The NPD defines authorized personal calls to include
local calls; toll-free calls; or calls charged to an employee’s telephone calling card, the
employee’s home, or to a non-Government party. An authorized personal call can also
be long-distance to locations in the local commuting area. For fiscal year 2001, NASA’s
estimated obligations for telephone services totaled about $99 million.6

At our request, the GSA Office of Governmentwide Policy provided us a further
understanding of the Code of Federal Regulations (CFR)7 requirements relating to
telephone use. For example, GSA discussed alternatives to supervisory reviews and
certifications of long-distance calls. Appendix B contains our questions and GSA
responses regarding the review of telephone calls, use of cellular telephones, and trends
in Governmentwide policy.




6
  This amount includes estimated obligations for domestic long-distance, international long-distance, and
local services. The estimate also includes the associated services and equipment, such as cellular
telephones and calling cards, used for the local and long-distance services. Calling cards allow employees
to place official long-distance calls from non-Government telephones.
7
  The GSA administers 41 CFR Subpart 101-35.2, "Telecommunications Management Policy," dated
July 1, 2000, for all Federal agencies. Details on the CFR are in the finding section of the report.
Finding and Recommendations

Management Controls Over Telephone Use

NASA lacked adequate management controls over telephone use. Specifically, NASA
had not:

   •   established guidance consistent with CFR requirements for collecting
       administrative costs associated with unauthorized calls;

   •   complied with guidance for reviewing and certifying telephone charges; and

   •   adequately blocked the ability to access inappropriate toll-free telephone
       numbers.

These conditions existed because NASA did not follow existing Agency guidance,
update the guidance to address CFR requirements, or establish guidance relating to
inappropriate telephone use. As a result, NASA lacked assurance that it was effectively
and efficiently using and managing telephone services.

Requirements for Use of Government Telephones

Title 41 CFR, section 101-35.201, "Authorized Use of Long-distance Telephone
Services." The CFR states that Agencies should use Government telephones for official
business only and should collect for any unauthorized calls if it is cost-effective to do so.
The CFR also states that Agency collections for unauthorized calls shall include an
additional amount to cover the administrative costs of determining that the call was
unauthorized and for processing the collection.

NPD 2540.1D, "Use of Government Telephones." The NPD outlines NASA policy for
using Government-provided telephones. The NPD states that telephone calls placed over
Government-provided or commercial telephone systems will be used for official
business, for an emergency, or for authorized personal calls only. Any call that is not
official, an emergency, or authorized personal usage, is an unauthorized call.

The NPD also states that Center Directors and the Associate Administrator for
Headquarters Operations (now the Director, Headquarters Operations) are responsible for
developing procedures to:

   •   obtain supervisory certification that toll calls under their jurisdiction are for
       official business, for emergency purposes, or are authorized personal calls; and

   •   collect money from those who use Government telephone services to make
       unauthorized personal calls.




                                              2
The NPD states that an authorized personal call:

   •   does not adversely affect the performance of the employee’s official duties or the
       effective function of the employee’s organization;

   •   is of reasonable duration and frequency and could not have been reasonably made
       at another time; and

   •   is local, made to an “800” toll-free number, or charged to a personal telephone
       calling card, to the employee’s home telephone, or to the non-Government party
       called.

An authorized personal call may also be long-distance. The long-distance call may be
made at Government expense to locations within the local commuting area to speak to a
spouse or dependent, to reach a number available only during working hours, or to
arrange for emergency repairs to the employee’s residence or property.

Collecting Administrative Costs

NPD 2540.1D does not comply with the CFR regarding costs to be included in charges
for unauthorized telephone calls. Specifically, the NPD does not address the CFR
requirement to identify the administrative costs of (a) determining that the call was
unauthorized and (b) processing the collection. The NPD requires only that the cost of an
unauthorized call be rounded to the nearest dollar to cover the administrative costs.

The OSF official responsible for developing NPD 2540.1D stated that he overlooked the
CFR requirement to recover all administrative costs associated with unauthorized calls.
The official stated that the CFR requirement should be included in the NPD. By revising
NPD 2540.1D to agree with the CFR, NASA will have improved guidance for charging
telephone users for the administrative costs associated with unauthorized telephone calls.
Until NASA revises NPD 2540.1D, the Agency does not have a documented policy to
require the full recovery of all administrative costs associated with unauthorized
telephone calls.

Reviewing and Certifying Telephone Charges

NASA locations did not perform supervisory reviews and certifications of telephone
charges as required by NPD 2540.1D. Specifically, only 4 of 11 NASA locations had
established a supervisory review and certification process for wired (standard)
telephones, and only 1 of 11 NASA locations had established a review and certification
process for Agency-distributed wireless (cellular) telephones.

Standard Telephones. We requested that NASA locations provide us information on
the process they used to review and certify telephone charges. Headquarters, Langley,
and Marshall officials responded that they did not have such a process because its costs



                                            3
would likely exceed the benefits achieved. None of the three locations had performed a
cost/benefit analysis to support its position. Goddard and Johnson responded that they
had implemented processes for reviewing and certifying telephone charges. However,
neither Center had ensured that its organizational components reviewed and certified
telephone charges. Finally, Ames and Marshall were the only NASA locations that had
established controls over collect calls. Ames included collect calls in call detail reports
that were distributed to supervisors for review and certification. Marshall’s contract with
the local telephone carrier prohibited collect calls to the Center. Appendix C
summarizes, by NASA location, whether supervisors performed reviews and
certifications and collected for unauthorized calls.

With respect to supervisory review and certification of telephone charges at JPL, the NASA
contract with the California Institute of Technology (CalTech) did not include reference to
NPD 2540.1D. When NASA negotiated the contract, CalTech representatives would not
accept incorporation of the NPD, and NASA officials said they believed that existing JPL
policy satisfied the intent of the NPD. However, the JPL policy was not adequate because it
did not provide for certification and collection of costs associated with unauthorized calls.

Cellular Telephones. Of the 11 NASA locations we reviewed, only Ames certified
cellular telephone charges. Ames had a process to review and certify cellular telephone
charges but did not address calls costing less than $5. Although Johnson and Kennedy
reviewed cellular telephone charges from a central organization and forwarded
questionable calls to supervisors for further investigation, those locations did not certify
cellular telephone charges.

Management officials gave several reasons for not reviewing and certifying cellular
telephone charges. For example, officials at several Centers said that they believed it
would not be cost-effective to implement such a process. An official at one Center said
she had not considered that NPD 2540.1D applied to cellular telephones. Although
NPD 2540.1D does not specifically mention cellular telephones, OSF management stated
that the NPD covers cellular telephones.

Review, Certification, and Collection Process. As previously discussed, 41 CFR states that
Agencies should use Government telephones for official business only and collect for any
unauthorized calls if it is cost-effective to do so. NPD 2540.1D includes the same restrictions
for using Government telephones and requires supervisory review and certification. NASA
included the supervisory review, certification, and collection requirements without first
determining their cost-effectiveness. Further, NPD 2540.1D does not address the CFR
reference to cost-effectiveness when establishing NASA’s collection procedures for
unauthorized calls. In view of the minimal amounts collected by NASA locations that
performed supervisory reviews (see Appendix C), NASA should consider possible
alternatives to the current review, certification, and collection process. We contacted three




                                               4
Federal agencies8 to determine whether they had a cost-effective procedure to identify and
collect for unauthorized calls. Each agency gathered call detail information. Although
practices may vary within specific components of each agency, representatives of the agencies
indicated limited, if any, use of the call data to collect for unauthorized long-distance calls.
Most of the representatives we spoke with questioned the cost-effectiveness of identifying and
collecting for such calls. We did not identify any agency that had a cost-effective process for
doing so.

To better understand the options available for reviewing telephone charges and to clarify
the extent to which agencies should apply CFR requirements, we developed several
questions that we provided to GSA’s Office of Governmentwide Policy. Appendix B
provides GSA’s response to our questions. NASA may wish to use the response in
developing cost-effective alternative procedures such as reviewing samples of
long-distance calls or developing a policy that addresses specific cellular telephone
charges.

Blocking Access to Inappropriate Telephone Numbers

NPD 2540.1D allows employees to call a toll-free9 number but does not address blocking
access to inappropriate toll-free numbers. The absence of Agencywide guidance
regarding calls to inappropriate toll-free numbers resulted in a wide variance in the
number of toll-free numbers blocked at NASA locations. For example, Goddard
identified and blocked 151 toll-free telephone numbers, while Langley blocked no
numbers. Appendix D identifies the number of inappropriate toll-free numbers blocked
at each location. Appendix E shows examples of inappropriate toll-free numbers not
blocked.

NASA locations did not always block access to inappropriate numbers because the Agency
had not established an applicable policy. Without guidance for identifying and blocking calls,
employees will continue to have access to inappropriate toll-free numbers.

Conclusion

Approaches for controlling telephone charges vary within the Agency. With the decreasing
cost of long-distance services and growth in the use of cellular telephones, NASA needs to
reassess the consistency and effectiveness of its controls for managing telephone use. Such
controls can provide NASA management assurance that the CFR requirements are met and
that cost-effective processes exist for managing telephone use at NASA locations.



8
  We contacted GSA, the Department of the Interior, and the Defense Telecommunications Services-
Washington of the Department of the Army, which provides telephone services to Department of Defense
components in the Washington, D.C., area.
9
  The NPD refers to 800 toll-free numbers; however, the OSF official responsible for updating
NPD 2540.1D stated that the intent was to include all toll-free numbers. Toll-free numbers beginning with
“866,” “877,” and ‘888,” were not readily available and used at the time the NPD was issued.


                                                    5
Recommendations, Management Response, and Evaluation of Response

The Associate Administrator for Space Flight should:

   1. Evaluate the cost-effectiveness of alternative procedures (such as sampling of
      calls or identification of extraordinary call frequency, unusual locations called,
      or unusually high cost per call) for reviewing and collecting costs for
      unauthorized telephone use, and modify NPD 2540.1D to provide for
      implementation of the most cost-effective procedure.

   2. Modify NPD 2540.1D to provide for the recovery of administrative costs
      associated with identifying and collecting the costs of unauthorized calls and
      to include specific reference to cellular telephones.

   3. Establish a policy for blocking access to inappropriate toll-free numbers.

   Management Response. Concur. The OSF will develop cost-effective procedures
   for reviewing and collecting costs (for unauthorized calls) and will update
   NPD 2540.1D to incorporate those procedures. Also, the OSF will modify
   NPD 2540.1D to provide for recovering administrative costs associated with
   identifying and collecting the costs of unauthorized calls and for blocking access to
   inappropriate toll-free numbers. Proposed changes and modifications to
   NPD 2540.1D will be completed by the end of fiscal year 2002. See Appendix F for
   management’s complete response.

   Evaluation of Management's Response. Management’s planned actions are
   responsive to the recommendations. The recommendations are resolved, but will
   remain undispositioned and open for reporting purposes until corrective actions are
   completed.

4. The Associate Administrator for Space Science should direct JPL to modify its
   telephone policy to comply with NPD 2540.1D.

Management Response. Partially concur. The Associate Administrator for
Space Science stated that the NASA Management Office will initiate negotiations
with Caltech/JPL to incorporate the NPD 2540.1D requirements into the contract
once NASA completes revision of the NPD (see Appendix F).

Evaluation of Management's Response. Management’s planned actions will satisfy the
intent of the recommendation. The recommendation is resolved, but will remain
undispositioned and open for reporting purposes until corrective actions are completed.




                                            6
              Appendix A. Objective, Scope, and Methodology

Objective

The overall objective was to determine whether NASA had established effective controls
for acquiring and managing its telecommunications services. Specifically, we
determined whether management controls were sufficient to ensure that NASA procures
only required services and support.

Scope and Methodology

We performed work at all NASA locations. We limited our review to management
controls for acquiring telephones, facsimiles, local video, administrative radio, remote
telecommunications, and public address services. To accomplish the audit objective, we:

   •   Reviewed applicable laws, regulations, NASA guidance, and other documentation
       related to the acquisition of, accountability for, and use of telecommunications
       services to understand the procedures used to manage telecommunications
       services.

   •   Interviewed information technology personnel and reviewed applicable
       documents to understand the procedures for acquiring and paying for
       telecommunications services.

   •   Obtained information from the Defense Telecommunications Services -
       Washington of the Department of the Army, Department of the Interior, and
       General Services Administration regarding their practices to identify and collect
       for unauthorized calls.

   •   Obtained information from the General Services Administration to determine its
       position on Title 41 of the Code of Federal Regulations requirements regarding
       telephone usage.

   •   Requested information from all NASA locations to understand and evaluate
       management practices relating to blocking telephone numbers, reviewing and
       certifying toll calls, and collecting for unauthorized calls.

Because of time constraints, we did not perform the extensive testing necessary to
determine the extent of unauthorized calls made by employees at NASA locations. We
did not rely on computer-processed data for the results included in this audit report.

Management Controls Reviewed

We reviewed management controls related to the use of Government telephones as
described in Title 41 of the Code of Federal Regulations, NASA Policy Directive


                                            7
Appendix A

(NPD) 2540.1D, and guidance issued by NASA locations. We considered the
management controls to be adequate except that NPD 2540.1D did not fully comply with
Code of Federal Regulations requirements and did not address blocking access to
inappropriate toll-free numbers. In addition, the Jet Propulsion Laboratory telephone
policy did not fully comply with the NPD (see the Finding).

Audit Field Work

We performed field work from September 2000 through August 2001 at Ames Research
Center, Hugh L. Dryden Flight Research Center, John H. Glenn Research Center,
Goddard Space Flight Center, Jet Propulsion Laboratory, Lyndon B. Johnson Space
Center, John F. Kennedy Space Center, Langley Research Center, George C. Marshall
Space Flight Center, NASA Headquarters, and John C. Stennis Space Center. We
performed the audit in accordance with generally accepted Government auditing
standards.




                                          8
         Appendix B. General Services Administration Response to
                       Inquiry on Telephone Use

To better understand the options available for reviewing telephone charges, we submitted
questions to the General Services Administration’s (GSA’s) Office of Governmentwide
Policy. The questions addressed how agencies should apply Title 41 of the Code of
Federal Regulations (CFR) requirements. Our questions and GSA’s responses (which we
paraphrased in some cases) are provided below.

Questions and Responses Relating to Review of Telephone Calls

Question: 41 CFR section 101-35.202, “Collection for Unauthorized Use,” states that
Agencies shall collect for any unauthorized calls if it is cost-effective to do so and further
states that collections shall include an additional amount to cover administrative costs.
Since administrative costs should be included in the amounts collected, can the Agency
determine that it would be uneconomical to institute a supervisory review and
certification process?

Response: Yes, and with the reduced price of calls (on land lines) some other agencies
have made that decision because the cost of review is too high. For your information,
FTS [Federal Telecommunications System] 200110 makes it optional if an agency even
gets the billing details for long-distance calls - since it does cost so much and the review
costs may exceed the abuse (if any).11

Question: Can the requirement for supervisory review and certification be met with a
process less than the supervisory review of all long-distance calls? (For example, either
(1) some higher level review that would identify questionable phone use for further
supervisory review or (2) monthly review of higher usage phones and a system that
randomly selects a sample of other users.)

Response: Yes. The random selection review and audit process is a well-founded
approach that has been used widely by many agencies as a realistic way to certify bills.
(This is similar to what is done for travel vouchers and other financial transactions where
the dollars and risk are much higher.)12




10
   FTS 2001 is the Federal Government’s long-distance voice/data/video network that is managed through
the GSA.
11
   Some NASA locations used their local Central Branch Exchange “call detail data” for reviewing
long-distance calls. Accordingly, those NASA locations may not need the FTS 2001 billing details to
review use of long-distance calls.
12
   Our audit also identified commercial sources that provided services and software for monitoring
telephone usage through call accounting. Call accounting is the process of collecting, analyzing, and
reporting call record information.

                                                   9
Appendix B

Questions and Responses Relating to Use of Cellular Telephones

Question: 41 CFR, section 101-35.201(c)(3)(i), prohibits use of a Government system or
device, where the Government pays the cost of the long-distance call, for other than
official business. Would cellular telephone calls, for which air-time charges (local or
long-distance) apply, fall under this CFR section?

Response: Actually, the general policy is for "official business,” but down lower [within
41 CFR, section 101-35.201(c)(3)(I)] the regulations intentionally say "authorized calls"
and the procedures open the issue of agency-authorized personal calls. So the agency can
set policies that permit some personal calls. For instance, GSA internal policies permit
that long-distance calls may be made to home or for personal business within the local
commuting area. (This acknowledges that just to call home or their doctor's office may be
a long-distance call for some.)

Also see "Model Limited Use Policy for Government IT" found at http://www.cio.gov
(search for "limited") that outlines the direction for agencies to set policies that permit
personal use. The basic rule in that model policy is that the personal use not create
"significant additional expense" for the Government.

Also note that the Government Rules of Conduct speak of "Authorized Use" of
Government equipment and facilities. Heads of agency can authorize the use of agency
facilities (see 5 USC [United States Code] 30113).

On cell phones - you’ll notice that that issue is intentionally omitted from the "Model
Limited Use Policy.” The reason is - as you suggest - because it is a gray area and a
slippery slope. If you don't draw a line, you'll be paying for all the personal cell phone
service for Government employees. But where to draw a line? If the user is on a rate
plan (justified by their Government use) that has free nights and weekends - then there is
no additional expense - so if the agency adopts the policy, it is fine to use that time for
personal use. Or if the plan permits 500 minutes per month, the employee can use the
unused minutes for personal calls. Even occasional calls that are billable do not add
"significant additional expense" and MAY also be determined to be acceptable.

You can see the direction - but until the market rate plans shift toward unlimited calls - or
very low costs per minute, it is difficult to draw the clear line. We also did not want to
create an environment that employees are all asking to change plans to 1,000 minutes per
month or unlimited so that their personal calls (for the privileged) would be covered.



13
  Title 5 of the U.S. Code (titled "Government Organization and Employees"), Section 301, states that the
head of an Executive department may prescribe regulations for the Government of his department, the
conduct of its employees, the distribution and performance of its business, and the custody, use, and
preservation of its records, papers, and property.

                                                   10
                                                                                           Appendix B

BOTTOM LINE: While we intentionally did not establish clarity in the model policy
for cell phone use in this area, the agency could establish a policy that permits some
limited personal use.

Question: During the course of our audit, we have been asked whether an employee
having a cellular telephone plan covering a specified amount of minutes can use the
remaining minutes at the end of the billing period for personal calls. Can they?

Response: Yes, if the agency adopts that policy - because it creates no significant
additional expense on the Government. However - be careful not to create demand
landslide [created by significant personal use] for new high-cost rate plans that are not
warranted by Government use.

It may be worth noting here that two agencies are telling employees to buy their own
personal phone service, and the agency will pay the employee a fixed monthly stipend
(say $25/month) for the Government calls. That reverses the issue and gets rid of all of
these problems. We are still researching to establish if there is a clear legality and the
proper mechanics for doing that.

Question: Another similar situation with cellular telephones is where the provider does
not charge for calls under a minute in length. In both of these situations, our audit would
conclude that nothing but authorized calls can be made. Is there any guidance in place or
contemplated that would contradict our position?

Response: The agency can easily "authorize" these calls because no "significant
additional expense" would be created for the Government.

Question and Response Relating to Trends in Governmentwide Policy

Question: Given the many changes in technology for placing telephone calls - - cellular,
personal data assistants, etc., and the drop in cost for telephone services, do you foresee
any near-term changes to Government policies pertaining to their use? If so, would you
please explain?

Response: Yes, see "Model Limited Use Policy." In general, the trend is toward a
relaxation of the limits on authorized use, the blending of family, work, and home,
acknowledging pressures to increase teleworking14 (and paying for telecom services to
the employee's home), and to make the Government work place more friendly, more like
commercial industry. You'll see very liberal telework arrangements evolving. There is
also the shift toward empowering and trusting the employees to use, but not abuse the
work environment.



14
     Telework allows employees to work at locations other than their traditional office.

                                                       11
 Appendix C. Reviews/Certifications of Telephone Charges and
             Collections for Unauthorized Calls


                               Supervisory          Collections for
                               Reviews and        Unauthorized Calls
     NASA Location
                               Certifications       October 1, 2000
                                Performed       through March 31, 2001

   Ames Research Center             Yes                $ 144
  Dryden Flight Research
                                    No                    480
         Center
  Glenn Research Center             No                      0
Goddard Space Flight Center         Yes                  3,096
    NASA Headquarters               No                      0
 Jet Propulsion Laboratory          No                      0
   Johnson Space Center             Yes                  2,170
   Kennedy Space Center             No                      0
 Langley Research Center            No                      0
Marshall Space Flight Center        No                      0
   Stennis Space Center             Yes                   137
      Total                                             $6,027




                                    12
Appendix D. Inappropriate Toll-Free Numbers Blocked


                                                Inappropriate Numbers
            NASA Location
                                                       Blocked

        Ames Research Center                                   71
 Dryden Flight Research Center                                  01
        Glenn Research Center                                   0
  Goddard Space Flight Center                                151
         NASA Headquarters                                      01
      Jet Propulsion Laboratory                                 0
        Johnson Space Center                                   56
        Kennedy Space Center                                   68
      Langley Research Center                                   0
  Marshall Space Flight Center                                  0
         Stennis Space Center                                  25
                   Total                                     371 2

  1
      The telephone carrier at this location could not block specific toll-free
      telephone numbers.
  2
      This number represents 271 different toll-free numbers. The population of
      inappropriate numbers may be larger.




                                          13
       Appendix E. Inappropriate Toll-Free Numbers Not Blocked


                                                                   Number of NASA
 Inappropriate Toll-
                            Response at Call Destination         Locations That Did Not
   free Numbers*
                                                                  Block This Number
  (800) 468-XXXX                   Sexually explicit                       7

  (800) 568-XXXX                   Sexually explicit                       8

  (800) 723- XXXX                       Psychic                            7

  (800) 733- XXXX                  Sexually explicit                       6

  (800) 753- XXXX                  Sexually explicit                       9

  (800) 758- XXXX                  Sexually explicit                       8

  (800) 766- XXXX                      Chat line                          10

  (800) 786- XXXX                  Sexually explicit                       7

  (800) 949- XXXX                  Sexually explicit                       7

  (800) 999- XXXX                  Sexually explicit                       7

*We have provided the complete telephone numbers to NASA management.




                                             14
Appendix F. Management's Response




               15
Appendix F




             16
     Appendix F




17
                       Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
AO/Chief Information Officer
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Acting Director, Headquarters Operations
G/General Counsel
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
M/Associate Administrator for Space Flight
S/Associate Administrator for Space Science


NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, Glenn Research Center
Director, Goddard Space Flight Center
Acting Director, Johnson Space Center
Director, Kennedy Space Center
 Chief Counsel, Kennedy Space Center
Director, Langley Research Center
Director, Marshall Space Flight Center
Acting Director, Stennis Space Center
Director, NASA Management Office, Jet Propulsion Laboratory


Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget




                                          18
Appendix G

Non-NASA Federal Organizations and Individuals (Cont.)

Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Director, Acquisition and Sourcing Management Team, General Accounting Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

The Honorable Pete Sessions, U.S. House of Representatives




                                         19
                NASA Assistant Inspector General for Audits
                             Reader Survey

The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.


Report Title:   Telephone Management

Report Number:                                  Report Date:


          Circle the appropriate rating for the following statements.
                                            Strongly                                Strongly
                                             Agree     Agree   Neutral   Disagree   Disagree   N/A
1. The report was clear, readable, and         5         4       3          2           1      N/A

   logically organized.
2. The report was concise and to the             5       4       3          2          1       N/A

   point.
3. We effectively communicated the               5       4       3          2          1       N/A

   audit objectives, scope, and
   methodology.
4. The report contained sufficient               5       4       3          2          1       N/A

   information to support the finding(s)
   in a balanced and objective manner.

Overall, how would you rate the report?

# Excellent        #    Fair
# Very Good        #    Poor
# Good
If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.




                                           20
How did you use the report?




How would you identify yourself? (Select one)

       #      Congressional Staff         # Media
       #      NASA Employee               # Public Interest
       #      Private Citizen             # Other:
       #      Government:             Federal:      State:    Local:


May we contact you about your comments?

Yes: ______                                    No: ______
Name: ____________________________
Telephone: ________________________



Thank you for your cooperation in completing this survey.




                                          21
Major Contributors to the Report

David L. Gandrud, Program Director, Information Technology Program Audits

Roger W. Flann, Program Manager

Bessie J. Cox, Auditor-in-Charge

Eugene R. Bauer, Auditor

Ronald T. Callahan, Auditor

Nancy C. Cipolla, Report Process Manager

Barbara J. Smith, Program Assistant
